                                  SOCIAL SECURITY
MEMORANDUM

Date:   August 14, 2003                                                  Refer To:

To:     Manuel J. Vaz
        Regional Commissioner
         for Boston

From:   Assistant Inspector General
         for Audit

Subject: The Connecticut Mental Health Center, Money Management Program – An
        Organizational Representative Payee for the Social Security Administration
        (A-13-03-23009)


        Attached is a copy of our final report. Our objectives were to determine whether the
        Connecticut Mental Health Center, Money Management Program, (1) had effective
        safeguards over the receipt and disbursement of Social Security benefits and
        (2) ensured Social Security benefits were used and accounted for in accordance with
        the Social Security Administration’s policies and procedures.

        Please comment within 60 days from the date of this memorandum on corrective
        action taken or planned on each recommendation. If you wish to discuss the final
        report, please call me or have your staff contact Shirley E. Todd, Director, General
        Management Audit Division, at (410) 966-9365.




                                                     S
                                                      Steven L. Schaeffer

        Attachment

        cc:
        Fritz Streckewald
        JoEllen Felice
        Candace Skurnik
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



   THE CONNECTICUT MENTAL HEALTH
CENTER, MONEY MANAGEMENT PROGRAM –
 AN ORGANIZATIONAL REPRESENTATIVE
            PAYEE FOR THE
   SOCIAL SECURITY ADMINISTRATION

     August 2003   A-13-03-23009



 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                               Executive Summary
OBJECTIVE

Our objectives were to determine whether Connecticut Mental Health Center, Money
Management Program (CMHC), (1) had effective safeguards over the receipt and
disbursement of Social Security benefits and (2) ensured Social Security benefits were
used and accounted for in accordance with the Social Security Administration’s (SSA)
policies and procedures.

BACKGROUND

Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted SSA the authority
to appoint representative payees (Rep Payee) to receive and manage these
beneficiaries’ payments. A Rep Payee may be an individual or an organization. SSA
selects Rep Payees for Old-Age, Survivors and Disability Insurance beneficiaries or
Supplemental Security Income recipients when representative payments would serve
the individual’s interests. Rep Payees are responsible for using benefits in the
beneficiary’s best interests.

CMHC provides services to adults with mental health concerns. CMHC serves about 50
individuals and is the Rep Payee for about 35 SSA beneficiaries. The remaining
15 individuals voluntarily receive money management services. SSA paid CMHC
approximately $200,000 for the 35 beneficiaries from May 1, 2001 through
April 30, 2002.

RESULTS OF REVIEW
Our audit showed that CMHC needed to (1) improve its safeguards over the receipt and
disbursement of Social Security benefits and (2) ensure that Social Security benefit
payments were used and accounted for in accordance with SSA's policies and
procedures. Specifically, CMHC

•   did not have the Rep Payee bank account properly titled to show that funds
    deposited into the account belonged to SSA beneficiaries;

•   did not place beneficiaries’ conserved funds into an interest-paying account;

•   had a check disbursement approval process but did not include an independent
    verification against original invoices;




Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)                 i
•   did not establish direct deposit for beneficiary payments, leaving beneficiary checks
    vulnerable to loss and theft;

•   improperly endorsed and deposited at least 76 benefit checks totaling about $45,000
    made payable to 8 beneficiaries for whom CMHC was not the Rep Payee; and

•   did not ensure a beneficiary’s medication needs were being met (see Other Matters).

We also identified three areas for SSA’s attention.

•   SSA did not record in its Representative Payee System (RPS) two beneficiaries in
    CMHC’s care.

•   SSA could not provide 25 of the 35 RPRs we requested (see Other Matters). We
    therefore could not determine whether CMHC properly reported to SSA how benefits
    were spent and invested for all cases.

•   SSA did not reinstate a beneficiary’s Title II benefits after being notified he was
    eligible for payments (see Other Matters).

CONCLUSIONS AND RECOMMENDATIONS

CMHC had internal control and accounting weaknesses, which prevented it from fully
meeting its responsibilities as a Rep Payee. We believe CMHC needs to improve
several areas of its Rep Payee program. We recommend that SSA:

1. Require that CMHC change the bank account titling to show the funds belong to the
   beneficiaries.

2. Request CMHC to deposit conserved funds in an interest-paying account.

3. Ensure CMHC’s check disbursement approval process includes verification with
   original invoices by a second person.

4. Request that CMHC establish direct deposit for all beneficiaries in its care.

5. Instruct CMHC to stop the practice of negotiating Social Security checks that are
   made payable to beneficiaries.

6. Determine whether CMHC should continue to serve as a Rep Payee in light of its
   improper endorsement of benefit checks.

7. Determine whether the eight beneficiaries that have their Social Security checks
   sent directly to CMHC need a Rep Payee.



Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)                       ii
8. Correct RPS to include all beneficiaries for whom CMHC was selected as a Rep
   Payee.


AGENCY COMMENTS
SSA agreed with all our recommendations (see Appendix A for the full text of SSA’s
comments).

REP PAYEE COMMENTS
CMHC generally agreed with our recommendations. With respect to Recommendation
2, CMHC stated that tracking interest-bearing funds for each participant in the program
would be impractical, and the balances maintained in the account do not warrant the
receipt of interest. With regard to Recommendation 4, CMHC stated that banking
procedures do not allow individual direct deposit transactions for group accounts (see
Appendix B for the full text of CMHC’s comments).

OIG RESPONSE

We acknowledge that tracking interest for very small conserved fund balances may not
be practical. However, we believe CMHC should place conserved funds in excess of
$500 in interest-bearing accounts, in accordance with SSA’s recommendation for Rep
Payees.

We continue to believe direct deposit provides improved safeguards over benefit
payments and would save CMHC the time and effort of handling numerous checks. We
contacted CMHC’s bank, and it advised us there are no banking procedures that
prohibit individual direct deposits for group accounts.




Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)                  iii
                                                                     Table of Contents
                                                                                                                   Page

INTRODUCTION............................................................................................................. 1

RESULTS OF REVIEW .................................................................................................. 4

   Rep Payee Bank Account Was Not Properly Titled .................................................... 4

   Beneficiary-Conserved Funds Were
   Not Held in an Interest-Paying Account ...................................................................... 4

   Check Disbursement Approval Process Needs Improvement..................................... 5

   Direct Deposit Was Not Used ..................................................................................... 5

   Improper Endorsement of Beneficiary Checks ........................................................... 6

   Not All Beneficiaries Were
   Recorded in the RPS................................................................................................... 6

CONCLUSIONS AND RECOMMENDATIONS .............................................................. 7

OTHER MATTERS ........................................................................................................ 9

   Rep Payee Reports .................................................................................................... 9

   Beneficiary Medication Needs Were Not Met ............................................................. 9

   Beneficiary Payment Status Was Incorrect ................................................................ 9


APPENDICES

APPENDIX A – Agency Comments

APPENDIX B – Representative Payee’s Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments




Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)
                                                                      Acronyms
CMHC             Connecticut Mental Health Center, Money Management Program

MBR              Master Beneficiary Record

OASDI            Old-Age, Survivors and Disability Insurance

Rep Payee        Representative Payee

RPR              Representative Payee Report

RPS              Representative Payee System

SSA              Social Security Administration

SSI              Supplemental Security Income

SSR              Supplemental Security Record




Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)
                                                                             Introduction
OBJECTIVE

Our objectives were to determine whether Connecticut Mental Health Center, Money
Management Program (CMHC) (1) had effective safeguards over the receipt and
disbursement of Social Security benefits and (2) ensured Social Security benefits were
used and accounted for in accordance with the Social Security Administration’s (SSA)
policies and procedures.

BACKGROUND

Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted SSA the authority
to appoint representative payees (Rep Payee) to receive and manage these
beneficiaries’1 benefit payments.2 A Rep Payee may be an individual or an
organization. SSA selects Rep Payees for Old Age, Survivors and Disability Insurance
(OASDI) beneficiaries or Supplemental Security Income (SSI) recipients when
representative payments would serve the individual’s interests.

Rep Payees are responsible for using benefits to serve the best interests of the
beneficiary or recipient. Their duties include:

•     using benefits to meet the beneficiary’s current and foreseeable needs;

•     conserving and investing benefits not needed to meet the beneficiary's current
      needs;

•     maintaining accounting records of how the benefits are received and used;

•     reporting events to SSA that may affect the beneficiary's entitlement or benefit
      payment amount;

•     reporting any changes in circumstances that would affect their performance as a
      Rep Payee; and

•     providing SSA an annual Representative Payee Report (RPR) accounting for how
      benefits were spent and invested.3

1
  We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
recipients.
2
    42 U.S.C. §§ 405(j), 1383(a)(2) (2002).
3
    See id.; 20 Code of Federal Regulations (C.F.R.), Part 404.2001 et seq., Part 416.501 et seq., and


Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)                                       1
About 7.6 million individuals have Rep Payees—approximately 4.5 million are OASDI
beneficiaries, 2.3 million are SSI recipients, and 800,000 are entitled to both OASDI and
SSI. The following chart reflects the types of Rep Payees and the number of individuals
they serve.

                                                      Number           Number of
               Type of Rep Payee                         of            Individuals
                                                     Rep Payees          Served
 Individual Payees: Parents, Spouses,
 Adult Children, Relatives, and Others                5,333,200         6,685,100
 Organizational Payees: State
 Institutions, Local Governments and                   41,500            807,400
 Others
 Organizational Payees: Fee-for-Service                  900             104,200
 TOTAL                                                5,375,600         7,596,700
Source: Master Rep Payee File as of January 2003.

CONNECTICUT MENTAL HEALTH CENTER, MONEY MANAGEMENT PROGRAM

CMHC provides services to adults with mental health concerns. CMHC serves about 50
individuals and is the Rep Payee for about 35 SSA beneficiaries. The remaining
15 individuals voluntarily receive money management services. SSA paid
approximately $200,000 to CMHC for the 35 beneficiaries from May 1, 2001 through
April 30, 2002.

CMHC assists clients in developing a budget for food, shelter, and clothing. CMHC
deposits client funds into a State of Connecticut checking account and establishes
grocery accounts at local food markets. CMHC prepares computer-generated
statements accounting for monies spent and balances remaining. Annually, CMHC
reviews clients’ budgets and money management plans. The review assesses clients’
progress toward reaching established money management goals and the
appropriateness of the level of money management assistance CMHC provides.
Clients’ money management goals are intended to assist individuals in developing the
skills necessary to manage funds more independently.

SCOPE AND METHODOLOGY

Our audit covered the period May 1, 2001 through April 30, 2002.

To accomplish our objectives, we:



20 CFR 404.2035 (2002).


Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)                     2
•   Reviewed the Social Security Act and SSA policies and procedures pertaining to
    Rep Payees.

•   Contacted SSA regional office and field office staff to obtain background information
    about CMHC performance as a Rep Payee.

•   Obtained from SSA’s RPS a list of individuals who were in CMHC’s care between
    May 1, 2001 and April 30, 2002.

•   Obtained from CMHC a list of individuals who were in its care between May 1, 2001
    and April 30, 2002.

•   Compared and reconciled the RPS and the CMHC list to identify the population of
    SSA individuals who were in CMHC’s care from May 1, 2001 through April 30, 2002.

•   Reviewed and tested CMHC’s internal controls over the receipt and disbursement of
    SSA benefit payments.

•   Performed the following tests for each beneficiary.

    -   Compared and reconciled benefit amounts paid according to the CMHC records
        to benefit amounts paid according to SSA’s payment records.

    -   Reviewed the CMHC accounting records to determine whether benefits were
        properly spent or conserved on the individual’s behalf.

    -   Traced a sample of expenses to source documents and examined the underlying
        documentation for reasonableness and authenticity.

•   Interviewed beneficiaries, personal guardians, or caregivers to determine whether
    their basic needs were being met.

•   Reviewed RPRs to determine whether the CMHC properly reported to SSA how
    benefits were used.

•   Reviewed Rep Payee Applications (SSA-11) to evaluate the completeness and
    appropriateness of the information provided on the applications.

We determined CMHC’s computer processed data to be sufficiently reliable for our
intended use. Further, any data limitations are minor in the context of this assignment,
and the use of the data should not lead to an incorrect or unintentional message. We
tested benefit payment receipts and disbursements recorded in CMHC's accounting
system. We conducted tests to determine the completeness, accuracy and validity of
the data. These tests allowed us to assess the reliability of the data and achieve our
audit objectives. We performed our audit in New Haven, Connecticut, and Baltimore,



Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)                        3
Maryland, from August to December 2002. We conducted our audit in accordance with
generally accepted government auditing standards.




Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)                 4
                                                       Results of Review
Our audit showed that CMHC needed to (1) improve its safeguards over the receipt and
disbursement of Social Security benefits and (2) ensure that Social Security benefit
payments were used and accounted for in accordance with SSA's policies and
procedures.

                         SSA policy states that a Rep Payee may establish collective
Rep Payee Bank           checking and savings accounts to hold monies belonging to
Account Was Not          several beneficiaries. However, to protect the beneficiaries’
Properly Titled          funds, the account title must show the funds belong to the
                         beneficiaries and not the Rep Payee.4 The account must be in
a form that clearly shows the Rep Payee has only fiduciary and not personal interest in
the funds.5 All investments must show the Rep Payee holds the benefits in trust for the
beneficiary.6

We found that CMHC had not established a properly titled bank account for the
beneficiaries in its care. The bank account did not show the beneficiaries as owners of
the account. A properly titled account is important because if the Rep Payee has
financial problems and/or bankruptcy occurs, beneficiary funds may not be protected
from loss or theft.

                        Federal regulations state that any benefits that are not needed
Beneficiary-
                        for the beneficiary’s current needs must be conserved or
Conserved Funds
                        invested.7 After a Rep Payee has used benefit payments, any
Were Not Held in
                        remaining amount shall be conserved or invested on the
an Interest-Paying
                        beneficiary’s behalf.8 Conserved funds should be invested in
Account                 accordance with the rules followed by trustees. Any investment
                        must show clearly that the Rep Payee holds the property in trust
for the beneficiary.9 Preferred investments for conserved funds are U.S. savings bonds
and deposits in an interest- or dividend-paying account in a bank, credit union, or
savings and loan association, which is insured under either Federal or State law.10




4
    Program Operations Manual System (POMS), GN 00603.020.
5
    20 CFR § 404.2045 (2002).
6
    See id.
7
    20 C.F.R. 404.2040 and 404.2045.
8
    20 C.F.R. §§ 404.2045 and 416.645 (2002).
9
    See id.
10
     20 C.F.R. §§ 404.2045(b) and 416.645(b) (2002).



Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)                       5
We found there was $9,380 in conserved funds for 12 beneficiaries for whom CMHC
had not invested in an interest-paying account. We brought this to CMHC’s attention,
and it agreed to look into investing the conserved funds in an interest-paying account.

Check Disbursement          A Rep Payee should have appropriate internal controls to
Approval Process            ensure the accuracy, completeness and proper authorization
Needs Improvement           of transactions related to the receipt and disbursement of
                            beneficiaries’ funds. As part of this, the Rep Payee’s check
                            disbursement approval process should include a verification
of original invoices by a second person.11

We examined CMHC’s check disbursement process and found that disbursement
checks were signed without an independent examination of the original invoice. The
CMHC business office signed the checks prepared by the money manager without any
review of the original invoice. While our audit did not detect any fraud or errors, we
believe the business office should establish a policy that disbursement checks be
approved and signed only after a second person verifies the information on the check.

As a result of our audit, CMHC changed its policy. The business office now verifies the
checks to original invoices.

Direct Deposit        Federal regulations12 generally require that all Federal payments
Was Not Used          be made by direct deposit. Direct deposit is a secure way of
                      receiving payments and protects beneficiaries from the loss, theft,
                      or delays associated with mailing paper checks. For a Rep Payee,
direct deposit is an effective and efficient process that saves the time and effort of
handling numerous benefit checks. The requirement to receive payments by direct
deposit can be waived if it would impose a hardship on the individual.13 SSA’s Guide for
Organizational Representative Payees encourages the Rep Payee to have benefit
payments direct deposited in a bank account.

CMHC received 35 beneficiary payments by check each month rather than by direct
deposit. Multiple employees had access to benefit checks before deposit. The
bookkeeper did not list beneficiary checks received by mail before delivering the checks
to the clerk for deposit. Manual posting of receipts imposes risk of erroneous postings.
If CMHC establishes direct deposit, risk of theft and/or loss will be minimized. Given the
vulnerability to theft and/or loss, we reviewed a sample of beneficiary payments to
ensure they were properly deposited in CMHC bank account. We did not find any
improper deposits. CMHC agreed to establish direct deposit of beneficiary payments.


11
 Internal Control-Integrated Framework the Committee of Sponsoring Organizations of the Treadway
Commission (COSO, 1992).
12
     31 C.F.R. § 208.3 (2002).
13
     31 C.F.R. § 208.4 (2002).



Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)                                6
                           According to SSA policy, “generally the beneficiary's mailing
Improper                   address should be the address where he/she resides.” Any
Endorsement of             other address is questionable and is not acceptable if it
Beneficiary Checks         facilitates an assignment of benefits, directs checks to a
                           location where the beneficiary cannot readily negotiate them,
or permits the beneficiary to conceal information that would result in nonpayment of
benefits.14 SSA policy also states that, if the mailing address is that of a hospital,
nursing home, rest home, etc., the beneficiary may need a Rep Payee.15

Of the 15 individuals who voluntarily received money management services, we
identified 8 as SSA beneficiaries. These eight beneficiaries’ benefit checks were sent
directly to CMHC. None of the eight beneficiaries had a Rep Payee; therefore, all of the
checks were made payable to the beneficiaries. However, we found that CMHC
improperly endorsed and deposited into its own operating account at least 76 benefit
checks belonging to these beneficiaries. The checks, totaling approximately $45,000,
lacked the beneficiaries’ signatures, which are required for proper endorsement. As a
result, there is a risk that beneficiary funds were improperly assigned to CMHC or these
beneficiaries’ may need a Rep Payee to manage their funds.

We informed CMHC of our findings and requested that SSA determine whether these
eight beneficiaries were capable of managing their own funds. In addition, SSA should
determine whether CMHC should continue to serve as a Rep Payee given that CMHC
knew or should have known it was improperly endorsing beneficiaries’ checks.

Not All Beneficiaries      The Omnibus Budget Reconciliation Act of 199016 requires
Were Recorded in           that SSA provide for specific identification and control of all
the RPS                    Rep Payees and the beneficiaries they serve. As a result,
                           SSA established RPS, an on-line system for entering and
retrieving information about Rep Payees and those applying to be Rep Payees. RPS
contains data about Rep Payee applicants, beneficiaries in the Rep Payee’s care, and
the relationship between the Rep Payee and the beneficiaries. In addition, SSA uses
the RPS to select a sample of beneficiaries for review during its site visits of Rep
Payees.

To determine the number of beneficiaries in CMHC’s care, we compared CMHC records
of beneficiaries to SSA’s records of beneficiaries in RPS. As a result, we identified
two beneficiaries for whom CMHC served as the Rep Payee that were not recorded in
RPS. We provided SSA the names of the two beneficiaries so it could take corrective
action to add them to RPS.

14
   42 U.S.C. § 407(a) Assignment is defined as the transfer of the right to, or payment of, benefits to a
party other than the beneficiary or his/her Rep Payee. The Social Security Act prohibits the assignment
of benefits.
15
     POMS, GN 02605.025.
16
     42 U.S.C. § 405(j)(2) (2002).



Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)                                         7
                                                  Conclusions and
                                                 Recommendations
CMHC has internal control and accounting weaknesses, which prevent it from fully
meeting its responsibilities as a Rep Payee. We believe CMHC needs to improve
several areas of its Rep Payee program. We recommend that SSA:

1. Require that CMHC change the bank account titling to show the funds belong to the
   beneficiaries.

2. Request CMHC to deposit conserved funds in an interest-paying account.

3. Ensure CMHC’s check disbursement approval process includes verification with
   original invoices by a second person.

4. Request that CMHC establish direct deposit for all beneficiaries in its care.

5. Instruct CMHC to stop the practice of negotiating Social Security checks that are
   made payable to beneficiaries.

6. Determine whether CMHC should continue to serve as a Rep Payee in light of its
   improper endorsement of benefit checks.

7. Determine whether the eight beneficiaries that have their Social Security checks
   sent directly to CMHC need a Rep Payee.

8. Correct RPS to include all beneficiaries for whom CMHC was selected as a Rep
   Payee.

AGENCY COMMENTS

SSA agreed with all our recommendations (see Appendix A for the full text of SSA’s
comments).

REP PAYEE COMMENTS

CMHC generally agreed with our recommendations. With respect to Recommendation
2, CMHC stated that tracking interest-bearing funds for each participant in the program
would be impractical, and the balances maintained in the account do not warrant the
receipt of interest. With regard to Recommendation 4, CMHC stated that banking
procedures do not allow individual direct deposit transactions for group accounts (see
Appendix B for the full text of CMHC’s comments).




Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)                       8
OIG RESPONSE
We acknowledge that tracking interest for very small conserved fund balances may not
be practical. However, we believe CMHC should place conserved funds in excess of
$500 in interest-bearing accounts, in accordance with SSA’s recommendation for Rep
Payees.

We continue to believe direct deposit provides improved safeguards over benefit
payments and would save CMHC the time and effort of handling numerous checks. We
contacted CMHC’s bank, and it advised us there are no banking procedures that
prohibit individual direct deposits for group accounts.




Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)                    9
                                                                  Other Matters
                     One method SSA uses to monitor Rep Payees is the RPR. The
Rep Payee            RPR is intended to assist SSA in determining the (1) use of
Reports              benefits during the preceding 12-month reporting period, (2) Rep
                     Payee’s continuing suitability, and (3) continuing need for
representative payment.17 Depending on the Rep Payee’s responses, SSA may contact
the Rep Payee to determine its continued suitability. We found that SSA could not
always retrieve CMHC-completed RPRs.

As part of our audit, we planned to review a sample of completed RPRs to determine
whether CMHC met its reporting responsibilities. We requested the most recently
completed RPRs for 35 beneficiaries. SSA only provided 10 of the 35 RPRs we
requested. For the remaining 25, we could not determine whether CMHC properly
submitted RPRs.

However, in February 2003, SSA established an electronic imaging system that will
image and electronically store all RPR forms. The imaging system should improve
SSA’s ability to timely obtain RPRs.

                        We interviewed five beneficiaries to determine whether their
Beneficiary             needs were being met. The interview consisted of questions
Medication Needs        concerning living arrangements, clothing, personal items, food,
Were Not Met            bill payments, and medical needs. One beneficiary complained
                        of not having money to pay for medication for physical problems.
We informed CMHC of the beneficiary’s medication concerns. CMHC stated that it will
work with the beneficiary to ensure the beneficiary’s medication needs are addressed.

                              The Social Security Act18 prohibits the payment of Social
Beneficiary
                              Security benefits to people who are confined to correctional
Payment Status                institutions.19 If an individual is officially released from prison,
Was Incorrect                 benefit payments must be reinstated.20 We found that SSA did
                              not reinstate a beneficiary’s OASDI benefits in September 2002,

17
     POMS, GN 00605.001.
18
     42 U.S.C. § 402(x)(1)(a)(2002)
19
     POMS, GN 02607.001.
20
     POMS, GN 02607.840.




Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)                             10
after his release from prison. We informed SSA about this matter and asked it to take
appropriate actions. SSA subsequently took action to reinstate the beneficiary’s
payments in December 2002.




Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)                     11
                                           Appendices




Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)
                                                                      Appendix A

Agency Comments




Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)
                                           SOCIAL SECURITY

MEMORANDUM


Date:      July 23, 2003                                                         Refer To: S2D1G3

To:        Steven L. Schaeffer
           Assistant Inspector General for Audit

From:      Manuel J. Vaz /s/
           Regional Commissioner
           Boston

Subject:   The Connecticut Mental Health Center (A-13-03-23009) - Revised

           Thank you for the opportunity to comment on the draft report, “The Connecticut Mental Health
           Center, Money Management Program – An Organizational Representative Payee for the Social
           Security Administration”.

           We agree with all the recommendations listed in the report.

           1. Require Connecticut Mental Health Center (CMHC) to establish a properly titled bank
              account.

              The CMHC currently maintains one bank account for both clients for whom the CMHC is
              representative payee and for whom the CMHC is not representative payee. The title of this
              bank account is “Connecticut Mental Health Center, Money Management Program”. The
              New Haven Social Security office continues to work with the CMHC in setting up a properly
              titled bank account for just those individuals for whom they serve as representative payee.

           2. Request CMHC to deposit conserved funds in an interest-paying account.

              The New Haven Social Security field office has requested CMHC to look into depositing
              conserved funds in an interest paying account. CMHC currently has individual checking
              accounts for each beneficiary and the bank charges no fees on these accounts.

           3. Ensure CMHC’s check disbursement approval process includes verification with original
              invoices by a second person.




           Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)                        A-1
   As a result of the audit, CMHC changed its policy. The business office now verifies each
   check to original invoices.

4. Request that CMHC establish direct deposit for all beneficiaries in its care.

   The New Haven Social Security office has discussed with CMHC the advantages of direct
   deposit.

5. Instruct CMHC to stop the practice of negotiating Social Security checks that are made
   payable to beneficiaries.

   When CMHC learned that they were inappropriately endorsing Social Security checks for
   beneficiaries for whom they were not representative payee, CMHC ceased this practice
   immediately.

6. Determine whether the eight beneficiaries that have their Social Security checks sent directly
   to CMHC need a representative payee.

   The New Haven Social Security field office has determined that these eight beneficiaries do
   not need a representative payee.

7. Evaluate whether CMHC should continue to serve as a representative payee in light of its
   improper endorsement of benefit checks.

   We have determined that CMHC should continue to serve as a representative payee. We
   find CMHC’s performance as a representative payee more than satisfactory.

8. Correct RPS to include all beneficiaries for whom CMHC was selected as a representative
   payee.

   The New Haven Social Security office has corrected RPS to include all beneficiaries for
   whom CMHC serves as representative payee.


If you have any questions on these comments, please contact Christine Bimber of the Programs
Policy and Systems Team at 617-565-2882.


cc:
Fritz Streckewald
JoEllen Felice
Candace Skurnik
Roger McDonnell
Area Director I, Boston
DM, New Haven CT



Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)                           A-2
                                                                      Appendix B

Representative Payee’s Comments




Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)           A-3
Comments from The Connecticut Mental Health Center:

Below are comments in regard to the draft Audit Report prepared by your office on May 30,
2003 entitled: The Connecticut Mental Health Center, Money Management Program—An
Organization Representative Payee for the Social Security Administration, #A-13-03-23009
Please refer to the Conclusions and Recommendations section, which can be found on page ii of
the report.


Audit Recommendations and Response:

1. Require that CMHC change the bank account titling to show the funds belong to the
   beneficiaries.

The Connecticut Mental Health Center’s Money Management Program serves both clients for
whom it functions as Representative Payee and clients who choose to enter the program but who
have not been designated as being in need of a Representative Payee. The program uses one
State checking account on behalf of all the clients involved in the program. Presently, the title
on the checks used by the Money Management Program is “Connecticut Mental Health
Center, Money Management Program, 34 Park Street, New Haven, CT.”

The State Treasurer’s Office has been contacted and discussions are taking place to explore ways
in which CMHC can comply with this audit requirement. The State Treasurer’s Office is
supportive of the need to ensure that the bank account title shows that the funds belong to the
beneficiaries and not the State. Options are being discussed and a resolution will be decided
upon soon.

2. Request CMHC to deposit conserved funds in an interest-paying account.

The Connecticut Mental Health Center’s money management program uses one banking account
for all program participants. The banking account is a “group account”, which assists the many
participating clients. Tracking interest- bearing funds for each individual participant in the
program is impracticable and unworkable.
Funds are revolving. Money is deposited and payments are made from the account daily. It
would be impossible to prorate and track the interest for each individual. Further, a daily
minimum balance is not maintained in the account to warrant the receipt of interest.
3. Ensure CMHC’s check disbursement approval process includes verification with original
invoices by a second person.


This recommendation has been fully implemented. A second person signs a verification sheet
before invoices are paid. Invoices are attached and initialed by the second verifier.




Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)                           B-2
4. Request that CMHC establish direct deposit for all beneficiaries in its care.
As stated in #2 above, the CMHC Money Management bank account is a group account.
Banking procedures do not allow individual direct deposit transactions for group accounts


5. Instruct CMHC to stop the practice of negotiating Social Security checks that are made
   payable to beneficiaries.

This recommendation has been fully implemented. The original intent of the CMHC Money
Management Program was to serve the client with the least intrusive intervention possible.
Initially, all beneficiary checks were received, stamped “for deposit” and then, deposited into the
Money Management Program checking account. This procedure has changed. Presently, each
enrolled client for whom CMHC does not serve as Representative Payee, endorses his/her check
and then it is deposited into the Money Management Program checking account.




Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)                             B-3
                                                                       Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Audit Division, (410) 966-9365

   Jim Klein, Audit Manager, (410) 965-9739


Acknowledgments

In addition to the persons named above:

    Alan Carr, Auditor-in-Charge

    Janet Stein-Pezza, Senior Program Analyst

    Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-03-23009.




Audit of CMHC – An Organizational Rep Payee for SSA (A-13-03-23009)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
The Connecticut Mental Health Center, Money Management Program
                       Overview of the Office of the Inspector General



                                             Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                    Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                        Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                   Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
